                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A03110069                                                                     Page 1 of 1



              In the course of reviewing a conference/workshop award' for compliance with NSF grant
     conditions, we identified issues with regard to program income, the involvement of NSF staff as
     participants in the workshop, and the reallocation of participant support funds. We reviewed the
     general ledger entries and supporting documentation for the grant account as supplied by the
     a ~ a r d e eWe
                  . ~ found that the documentation supported the general ledger entries and were satisfied
     with the awardee's explanations regarding duplicative entries in the general ledger.
              With regard to NSF staff participation in the workshop, we identified three NSF employees
     who attended the workshop and gave presentations.3 One was the program director for the program
     funding the workshop and the initial cognizant NSF program officiaL4 Thus, there was an apparent
     conflict of interests; however, the workshop is a recurring event for awardees that receive funds from
     that particular NSF program.5 Two paid a nominal registration fee, which was the only program
     income generated by the workshop.6 The program income appears to have been appropriately used
     to offset grant expenses. None of the three NSF staff received participant support except maybe for
     their attendance at meals that were part of the workshop.
              We also found that an NSF program officer7had approved reallocation of participant support
     funds, as documented in the award jacket. However, the program officer's documentation was vague
     and lacked supporting details as the rationale for the approval.
              We have no further issues to resolve with the awardee of this award.

            Accordingly, this case is closed.
